Audit Report




OIG-12-077
TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA
IT Modernization Program Is Meeting Milestones, But Oversight
Remains Crucial
September 27, 2012




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Results in Brief ............................................................................................ 3

  Findings ..................................................................................................... 5

      BSA IT Mod Program Is Generally Meeting Schedule and Cost Milestones But
      Some Projects’ Completion Dates Have Been Extended ............................... 5
      FinCEN Conducted BSA IT Mod Project Performance Testing and Resolved
      Significant Issues .................................................................................... 11
      FinCEN Maintained Oversight of the BSA IT Mod Program ........................... 15

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              19
  Appendix     2:      Corrective Actions to Prior Audit Recommendations..................                    22
  Appendix     3:      Additional Background Information on BSA IT Mod ...................                    23
  Appendix     4:      Management Response .........................................................          27
  Appendix     5:      Major Contributors to this Report ............................................         28
  Appendix     6:      Report Distribution ................................................................   29

Abbreviations

  BSA                  Bank Secrecy Act
  BSA Direct           BSA Direct Retrieval and Sharing
  BSA IT Mod           BSA Information Technology Modernization Program
  CIO                  Chief Information Officer
  EVM                  earned value management
  FinCEN               Financial Crimes Enforcement Network
  H. Rept.             House Report
  IRS                  Internal Revenue Service
  IT                   Information Technology
  MITRE                MITRE Corporation
  OCIO                 Office of the Chief Information Officer
  OIG                  Office of Inspector General
  PMO                  Project Management Office
  SOR                  system of record
  TEOAF                Treasury Executive Office of Asset Forfeiture
  WebCBRS              Web-based Currency and Banking Retrieval System



                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight          Page i
                       Remains Crucial (OIG-12-077)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                      September 27, 2012

                      Jennifer Shasky Calvery, Director
                      Financial Crimes Enforcement Network

                      The Financial Crimes Enforcement Network (FinCEN)
                      administers the Bank Secrecy Act (BSA), which established the
                      framework to combat criminal use of the financial system. BSA
                      requires financial institutions to report certain financial
                      transactions made by their customers. FinCEN oversees the
                      management, processing, storage, and dissemination of BSA
                      data.

                      In November 2006, FinCEN began a system development effort,
                      the BSA Information Technology Modernization Program (BSA
                      IT Mod), to improve the collection, analysis, and sharing of BSA
                      data. The intent of the system was, among other things, to
                      transition BSA data from the Internal Revenue Service (IRS) to
                      FinCEN.1 BSA IT Mod is estimated to cost $120 million and is
                      to be completed in 2014.

                      Pursuant to a Congressional directive, we conducted a second
                      in a series of audits of FinCEN’s BSA IT Mod.2 Consistent with
                      the Congressional directive, the objectives of the audit were to
                      determine if FinCEN is (1) meeting cost, schedule, and
                      performance benchmarks for the program and (2) providing
                      appropriate oversight of contractors. The period covered by this
                      audit is June 2011 through May 2012. We interviewed FinCEN


1
  Until recently, the processing, storage, and dissemination of BSA data was maintained at IRS’s
Enterprise Computing Center in Detroit, Michigan.
2
  House Report (H. Rept.) 112-331 directed our office to report on BSA IT Mod, including contractor
oversight and progress regarding budget and schedule, semiannually. Our first report under this
requirement was due March 31, 2012, and was issued on March 26, 2012.

                      FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 1
                      Remains Crucial (OIG-12-077)
                       program officials, Department of the Treasury Office of the
                       Chief Information Officer (Treasury OCIO) officials, and IRS
                       officials involved with managing and using BSA data. We
                       interviewed representatives from Deloitte Consulting, LLP
                       (Deloitte), and MITRE Corporation (MITRE), the contractors
                       involved with the program. 3 We also reviewed applicable
                       program documentation. We performed our fieldwork from
                       March 2012 to August 2012. Appendix 1 provides a more
                       detailed description of our audit objectives, scope, and
                       methodology.

                       In March 2012, we reported on FinCEN’s BSA IT Mod program
                       as of May 2011. 4 We found that the program was generally
                       within scheduled milestones though certain projects had been
                       delayed by more than the 10 percent of schedule. We
                       concluded that FinCEN prepared a credible business case before
                       beginning development of BSA IT Mod but did not report $11.2
                       million of planning costs. We also found that FinCEN had
                       restructured to strengthen management and oversight of the
                       program, and the Treasury OCIO was actively overseeing BSA
                       IT Mod.

                       In the March 2012 report, we also cautioned that the
                       successful and timely completion of BSA IT Mod was, in part,
                       dependent on the successful completion of the system of record
                       (SOR). The SOR is the information storage system for BSA data.
                       FinCEN had extended the SOR’s completion date because of
                       complexities encountered during its development. In addition,
                       we found that certain IRS users had expressed concerns over
                       the potential impact to their operations as they transitioned
                       from being a supplier of BSA data to being a receiver of BSA
                       data. To address this, FinCEN decided to provide the data in the
                       same format that Web-based Currency Banking and Retrieval
                       System (WebCBRS) had been using and mapping the data

3
  FinCEN contracted with Deloitte to oversee the systems development and integration effort.
Deloitte is the prime contractor in the BSA IT Mod effort. MITRE is a not-for-profit organization
chartered to work in the public interest with expertise in systems engineering, information
technology, operational concepts, and enterprise modernization. FinCEN engaged MITRE as a
subject matter expert on program and project management and BSA IT Mod business capabilities.
4
  Treasury Office of Inspector General (OIG), FinCEN’s BSA IT Modernization Program Is on
Schedule and Within Cost, But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047; Mar. 26, 2012).

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 2
                       Remains Crucial (OIG-12-077)
                        contained in the newly planned BSA forms to WebCBRS. 5 This
                        was not part of FinCEN’s original development plan as it was
                        initially expected that all IRS users would transition to the new
                        system.


Results in Brief
                        As of May 2012, similar to what we reported in March 2012,
                        we found that the BSA IT Mod program was on schedule and
                        within budgeted cost. Development of the program met all
                        major scheduled milestones, though the planned completion
                        dates for certain projects were extended. During the scope of
                        this review, FinCEN became the authoritative source for BSA
                        data when it transitioned the collection, processing, and storage
                        of all BSA data from IRS in January 2012.

                        FinCEN tested the performance of BSA IT Mod projects
                        completed as of our review, and resolved many significant
                        issues identified during the testing. To address previously
                        reported concerns with the new SOR, FinCEN was able to
                        provide BSA data from its E-Filing system in the same format
                        IRS used. That is, it was able to successfully map the data from
                        the new BSA forms to the legacy IRS WebCBRS system format.
                        FinCEN tested and completed mapping to both legacy and new
                        BSA forms. Both FinCEN and IRS signed off on the data
                        mapping with no major concerns identified.

                        While the above are notable accomplishments, potential risks
                        still remain to the successful implementation of BSA IT Mod.
                        One potential risk is the interdependency between the
                        component projects. For example, changes made to one project
                        are likely to result in changes to other projects. There is also
                        risk in that additional costs and schedule delays could occur if
                        project resources are reallocated and used to resolve defects,
                        conduct additional testing, or enhance projects during
                        development.

                        FinCEN maintained oversight of the BSA IT Mod program. For
                        example, it continued to monitor BSA IT Mod contractor

5
    WebCBRS is IRS’s BSA data warehouse and information retrieval system.

                        FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 3
                        Remains Crucial (OIG-12-077)
                      performance through status review meetings. However, we did
                      identify an area of concern related to the program’s oversight.
                      FinCEN discontinued independent program assessments by its
                      Project Management Office (PMO). The PMO turned its focus on
                      providing technical assistance for BSA IT Mod’s configuration
                      management 6 after completing two assessments. While we did
                      not identify any adverse impact to the BSA IT Mod program so
                      far as a result of the PMO’s reduced independent oversight, we
                      plan to follow up on this area in our upcoming audits of the
                      program. With respect to Treasury OCIO, we found that the
                      office’s monitoring of the program continued, primarily through
                      reviews of FinCEN-prepared documentation of program
                      progress.

                      This audit, our second in a series, did not identify the need to
                      make any new recommendations to FinCEN. Our first audit
                      identified two recommendations for which corrective action has
                      been taken. Appendix 2 provides further details on these
                      recommendations and FinCEN’s corrective actions.

                      In its management response, FinCEN agreed with our report
                      findings and conclusions, and emphasized among other things
                      actions it had taken to manage the BSA IT Mod program. The
                      FinCEN management response is provided in appendix 4. We
                      also received comments from the Treasury Chief Information
                      Officer’s (CIO) provided in an email. In our draft report, we
                      expressed concern that since our last audit, Treasury OCIO had
                      reduced and limited its oversight activities of the BSA IT Mod
                      program to a review of program documentation. In her
                      comments, the CIO stated that the draft report overstated the
                      change in oversight by her office and that she believed
                      oversight of FinCEN’s BSA IT Mod program in the period we
                      reviewed was appropriate. The CIO also noted that going
                      forward, she plans to increase the level of interaction with the
                      bureau CIOs and take a more proactive approach to continually

6
  Configuration management is a process for establishing and maintaining consistency of a system’s
performance and functional and physical attributes with its requirements, design, and operational
information throughout its life. The process includes the detailed recording and updating of
information that describes an enterprise's hardware and software. It allows computer technicians to
see what is currently installed, make a more informed decision about upgrades needed, and make
sure any changes made to one system do not adversely affect any of the other systems.

                      FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 4
                      Remains Crucial (OIG-12-077)
            improve oversight. While we acknowledge the CIO’s perspective
            on her office’s level of oversight, we plan to continue assessing
            that oversight in our future audits.

Finding 1   BSA IT Mod Program Is Generally Meeting Schedule
            and Cost Milestones But Some Projects’ Completion
            Dates Have Been Extended

            As of May 2012, we found that BSA IT Mod program was on
            schedule and within budgeted cost. Development of the
            program met all major scheduled milestones, though the
            planned completion dates for certain projects were extended.
            Also, FinCEN became the authoritative source for BSA data
            upon transitioning the collection, processing, and storage of all
            BSA data from IRS in January 2012.

            Figure 1 provides a timeline of significant events in the BSA IT
            Mod program.




            FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 5
            Remains Crucial (OIG-12-077)
Figure 1. Timeline of Significant Events in FinCEN’s BSA System Modernization Efforts

                      January 2007 –
                     December 2009                    May 2010              January 2012                April 2014
   July 2006       FinCEN developed IT                Design and      FinCEN transitioned the            Planned
     FinCEN        governance process,               development       collection, processing,            system
   terminated      stakeholders’ needs,              phase started    and storage of all BSA           development
  BSA Direct*       and business case                                       data from IRS               completion


2006        2007           2008        2009          2010        2011         2012         2013           2014


     November 2006                 January 2009                      June 2011            April 2013
  FinCEN established IT                Program                         FinCEN           Planned release
  modernization, vision             initiation and                    realigned              of last
   and strategy and set            planning phase                     costs and         scheduled BSA
      modernization                of BSA IT Mod                       adjusts              IT Mod
        foundation                      started                       schedule            component


Source: OIG review of FinCEN data.
*FinCEN terminated BSA Direct Retrieval and Sharing (BSA Direct) after concluding the project had no
guarantee of success. We reviewed that failure and found that FinCEN poorly managed the predecessor
project, insufficiently defined functional and user requirements, misjudged project complexity, and established
an unrealistic completion date. We also found that the Treasury OCIO did not actively oversee the project, as
required by the Clinger-Cohen Act of 1996. OIG, The Failed and Costly BSA Direct R&S System Development
Effort Provides Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057: Jan. 5, 2011).


                          BSA IT Mod Generally Met Scheduled Milestones

                          As of May 31, 2012, FinCEN met all major scheduled
                          milestones, although the planned completion dates for certain
                          projects had been extended. FinCEN management officials told
                          us that the extensions were needed for further development,
                          testing, and resolution of noted defects. Dates were also
                          extended because resources were reallocated and used to
                          resolve those defects and make changes to the SOR project
                          after it was initially deployed. In this regard, because individual
                          BSA IT Mod component projects are dependent on one another,
                          changes to one project, such as the SOR, required programing
                          changes to other projects. Table 1 displays the status of BSA IT
                          Mod by project. See appendix 3 for project descriptions.




                          FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight         Page 6
                          Remains Crucial (OIG-12-077)
Table 1: BSA IT Mod Schedule Status as of May 31, 2012
                              Planned             Revised              Actual or
                              Completion          Completion           planned           Status at
                              Date at May         Date at June         Completion        May 31,
Project                       20101               20112                Date3             2012
System of Record (SOR)
      Release 1               9/30/2011           12/1/2011            12/15/2011        Complete
      Release 2               6/30/2012           7/1/2012             7/31/20126        Ongoing
Shared Filing Services
      Release 1               9/30/2011           12/1/2011            12/15/2011        Complete
      Release 2               6/30/2012           7/1/2012             7/1/20126         Ongoing
Third Party Data
      Release 1               9/30/2011           12/1/2011            12/15/2011        Complete
      Release 2               6/30/2012           7/1/2012             7/1/20126         Ongoing
Data Conversion               12/31/2011          1/1/2012             1/6/2012          Complete
E-Filing
      Release 1               6/30/2011           7/1/2011             7/1/2011          Complete
      Release 2               10/31/2011          7/1/2012             7/31/20126        Ongoing
FinCEN Query
      Release 1               2/28/2012           6/1/2012             6/30/2012         Ongoing
      Release 2               9/30/2012           10/1/2012            12/1/20126        Ongoing
Advanced Analytics
      Release 1               10/31/2010          10/31/2010           10/31/2010        Complete
      Release 2               4/30/2011           4/30/2011            4/30/2011         Complete
      Release 3               7/31/2012           9/1/2012             9/1/20126         Ongoing
      SCIF4                   n/a                 12/1/2012            10/1/20126        Ongoing
Register User Portal          3/31/2011           3/31/2011            3/31/2011         Complete
Identity/Access
Control Management            3/31/2011           3/31/2011            3/31/2011         Complete
Broker Information Exchange
     314A,B Release 1         5/31/2011           5/31/2011            5/31/2011         Complete
     314A,B Release 2         12/31/2012          4/1/2013             4/1/20136         Ongoing
Alerts                        9/30/2012           1/1/2013             1/1/20136         Ongoing
Bulk Data Dissemination
      Release 1               9/30/2011           3/1/2012             4/17/2012         Complete
      Release 2               6/30/2012           7/1/2012             7/1/20126         Ongoing




                    FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight       Page 7
                    Remains Crucial (OIG-12-077)
    Table 1: BSA IT Mod Schedule Status as of May 31, 2012
                                       Planned              Revised               Actual or
                                       Completion           Completion            planned            Status at
                                       Date at May          Date at June          Completion         May 31,
    Project                            20101                20112                 Date3              2012
    Infrastructure & Portal
    Security Develop and Test          9/30/2010            9/30/2010            9/30/2010           Complete
         Release 1                     3/31/2011            3/31/2011            3/31/2011           Complete
         Release 2                     9/30/2011            9/30/2011            9/30/2011           Complete
         Release 3                     6/30/2012            n/a5                 n/a5                n/a5
    Source: OIG analysis of FinCEN documentation.
    1
      The dates displayed were the initial planned completion dates when in May 2010, FinCEN began the design
    and development of projects after receiving Office of Management and Budget approval.
    2
      FinCEN submitted a baseline change request (BCR) to the Treasury CIO to adjust selected project milestone
    schedule dates and realign costs to keep the overall program on track. The baseline change was implemented
    in June 2011. See appendix 3 for additional information regarding the BCR.
    3
       Dates displayed represent the actual completion dates if the project was completed, or the planned
    completion date as of the cutoff date of our review (May 31, 2012).
    4
       A sensitive compartmented information facility (SCIF) has formal access controls and is used to hold
    information concerning or derived from intelligence sources, methods, or analytical processes. FinCEN plans to
    provide its SCIF with advanced analytics capability, which was not part of the initial plan.
    5
       Not applicable - The work planned for Infrastructure Release 3 was removed from the project and will be
    done as part of BSA IT Mod’s on-going operations and maintenance.
    6
       We plan to determine the status and report on the milestone in our next semiannual report pursuant to
    H. Rept. 112-331.


                            One major accomplishment for FinCEN was its completion of
                            the SOR and successful conversion of 11 years of historical
                            BSA data, about 850 million records, from IRS’s WebCBRS data
                            base into the new BSA IT Mod SOR in January 2012. 7 It was
                            with that event that FinCEN assumed the role as the
                            authoritative source of BSA data as it successfully transitioned
                            the collection, processing, and storage of all BSA data from IRS.

                            The SOR and data conversion projects had only small schedule
                            extensions. The SOR’s scheduled completion date was delayed
                            by 2 weeks to incorporate changes and fix defects. Actual
                            costs exceeded budgeted costs by approximately $240,000, or
                            3 percent. The scheduled completion date for the conversion of



7
 The SOR is a major project and part of a wider effort of BSA IT Mod program’s Data Collection
Storage and Dissemination (DCSD) effort. DCSD focused on the development of the technical
design specifications for the first release of the system components to receive and store data from
the E-Filing system and load that BSA data to the Shared Filing Services and to SOR. Third Party
Data is also a project in DCSD. Shared Filing Services and Third Party Data experienced the same
schedule slippage as the SOR and are also reflected in the cost increase described above.

                            FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight           Page 8
                            Remains Crucial (OIG-12-077)
                       11 years of BSA data was extended by just under 1 week, and
                       costs were within the project’s budget plan.

                       The completion date for release 1 of the Bulk Data
                       Dissemination project was delayed by approximately 7 weeks
                       because the project’s resources were reallocated to the SOR to
                       complete its development and resolve defects.

                       The completion dates of release 2 of the SOR and release 2 of
                       E-Filing were delayed 4 weeks. The SOR was delayed because
                       resources intended for completing its development were
                       reallocated to address development issues and outstanding
                       defects in the first release of the SOR, which needed to be
                       addressed prior to deploying FinCEN Query. 8 FinCEN program
                       management officials told us that E-Filing was extended
                       because of delays in awarding the contract.

                       The next major BSA IT Mod milestone was the completion of
                       FinCEN Query. FinCEN extended its completion date from
                       June 1, 2012, to June 30, 2012, with deployment to external
                       users delayed until enhancements requested by law
                       enforcement were included. These enhancements were being
                       incorporated into the schedule as the first interim milestone of
                       release 2. FinCEN planned to complete development and start
                       deployment in September 2012. The final milestone of release 2
                       was scheduled for completion on December 1, 2012. FinCEN
                       also added approximately $500,000 to the project’s budget for
                       increased testing. FinCEN extended the schedule completion
                       date for FinCEN Query to incorporate changes after FinCEN
                       made changes to the SOR.

                       FinCEN plans to enhance FinCEN Query in response to law
                       enforcement user requests. FinCEN program management
                       officials told us that users thought FinCEN Query, in its current
                       state, produced too many results and was too challenging to
                       use. Approximately $400,000 was added to the planned budget
                       to cover these enhancements. IRS agreed to support data
                       querying through its WebCBRS until December 1, 2012, while
                       FinCEN enhances FinCEN Query. IRS initially planned to support

8
 At the time of our review, a FinCEN official stated that the cost impact to release 2 of the SOR
was approximately $200,000.

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 9
                       Remains Crucial (OIG-12-077)
that function until September 2012, when FinCEN Query was
supposed to become available to users.

BSA IT Mod Was Within Budgeted Costs

As of May 31, 2012, FinCEN reported that it had spent
approximately $63.7 million developing BSA IT Mod from its
overall $120 million, 4-year plan. Not included in this amount
was approximately $11.2 million in program planning costs,
which we addressed in our March 2012 report. In that regard,
FinCEN’s actual program costs incurred through May 2012
were approximately $75 million. A breakdown by category of
the actual costs incurred is provided in Table 2 below.

 Table 2: BSA IT Mod Costs as of May 31, 2012 (in millions)
 Category                                                    Amount
 Initial Planning                                             $11.2
 Development
     Hardware and Software                                       9.3
     Contractor Services                                        31.3
     Other1                                                     10.2
     Operations and Maintenance                                  8.5
 FTE2                                                            4.5
 Total                                                         $75.0
 Source: OIG analysis of FinCEN data.
 1
   Other costs are comprised of (1) program management and
 program engineering performed by Deloitte and MITRE, (2) a
 contract office fee of 4 percent for the Department of the Interior’s
 National Business Center Acquisition Services Directorate for
 support of the BSA IT Modernization Program, and (3) a
 management reserve for potential additional work to be performed
 within the authorized work scope of the contract or to
 accommodate rate changes for future work.
 2
   FTE is the estimated costs associated with FinCEN employees
 working on the BSA IT Mod program.


FinCEN was funding BSA IT Mod through $96.4 million received
from both its annual appropriations and supplemental funding
from the Treasury Executive Office of Asset Forfeiture (TEOAF).
TEOAF provided funding for the BSA IT Mod Program consistent
with its authority to provide funds for law enforcement-related




FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 10
Remains Crucial (OIG-12-077)
                       expenditures. 9 Table 3 below identifies the program’s funding
                       sources by year.

                        Table 3: BSA IT Mod Funding Sources as of May 2012 (in millions)
                        Fiscal Year        TEOAF            Appropriation                 Total
                        2009                 $3.7                   $2.5                  $6.2
                        2010                 11.7                   18.5                  30.2
                        2011                 11.5                   18.5                  30.0
                        2012                  6.5                   23.5                  30.0
                        Total               $33.4                 $63.0                  $96.4
                        Source: OIG analysis of FinCEN and TEOAF documentation.


Finding 2              FinCEN Conducted BSA IT Mod Project Performance
                       Testing and Resolved Significant Issues

                       In a process referred to as government acceptance testing, 10
                       FinCEN tested the performance of the BSA IT Mod projects
                       completed as of our review. It also resolved issues identified
                       during the testing.

                       As shown in Table 4 below, FinCEN tested Shared Filing
                       Services, Third Party Data, and Data Conversion. FinCEN also
                       completed testing of data processed through E-Filing into the
                       SOR.




9
  TEOAF administers the Treasury Forfeiture Fund, which is the receipt account for the deposit of
non-tax forfeitures made as a result of law enforcement actions by participating Treasury and
Department of Homeland Security agencies. The Treasury Forfeiture Fund is established under
31 U.S.C. § 9703. The Fund can provide money to other federal entities to accomplish specific
objectives for which the recipient bureaus are authorized to spend money and toward other
authorized expenses. Distributions from this Fund in excess of $500,000 cannot be used until
Appropriations Committees from both houses of Congress are notified. TEOAF submits its planned
release of funds to Congress annually.
10
   Government acceptance testing is the government’s opportunity to validate that project
requirements were met. It includes testing functionality, system usability, permissions and security,
compatibility testing, and traceability to business requirements through test script execution,
demonstrations and inspections. Performance and response time are also observed.


                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 11
                       Remains Crucial (OIG-12-077)
Table 4: BSA IT Mod Project Testing Status as of June 27, 2012
                                            Completion           Total        Closed         Open
Project                                     Date of Testing      Defects1     Defects        Defects
Daily Processing of Data:                   12/14/2011           362          355            7
 System of Record
       Release 1
 Third Party Data
       Release 1
 Shared Filing Services
       Release 1
Data Conversion                             12/14/2011           544          544            0
E-Filing
       Release 1                            6/7/2011             7            7              0
       Release 2                            3/8/2012             361          301            60
FinCEN Query
       Release 1                            6/27/2012            1,142        931            211
Advanced Analytics
       Release 1                            10/18/2010           70           66             4
       Release 2                            4/14/2011            50           49             1
Register User Portal, Identity/Access
Control Management                          3/22/2011            33           24             9
Broker Information Exchange
       314A Release 1                       5/26/2011            23           23             0
Source: OIG analysis of FinCEN data.
1
  A defect is when the actual test results do not match the expected results. Defects are also commonly
referred to as bugs, issues, problems, or incidents.


                   As shown in Table 4, the FinCEN Query testing was ongoing as
                   of May 31, 2012, and FinCEN was actively working to resolve
                   defects. Based on our review of sample test results, we found
                   open defects included, for example, browser incompatibilities
                   between different versions preventing some information from
                   displaying. Another example of a type of open defect resulted
                   from the way business rules were written in that there was an
                   overlap in states and countries. For example, both the code for
                   California and Canada is “CA” resulting in a resident of
                   California also being displayed as a resident of Canada.

                   The Infrastructure project did not undergo independent
                   government acceptance testing. However, for the Infrastructure
                   project, FinCEN determined that the servers, the network, and
                   databases were operational. The Bureau of the Public Debt
                   performed an independent third-party certification and




                   FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight       Page 12
                   Remains Crucial (OIG-12-077)
                       accreditation of the infrastructure. 11 FinCEN developed a Plan of
                       Actions and Milestones to address identified risks. 12

                       Testing of the Bulk Data Dissemination project, release 1, also
                       had not undergone government acceptance testing. Instead,
                       FinCEN provided users with sample bulk data files to test and
                       validate. FinCEN collected user comments and updated bulk
                       data specifications accordingly. Government acceptance testing
                       is planned for release 2 of the project.

                       FinCEN program management officials and representatives from
                       Deloitte and MITRE told us that all issues identified during
                       project testing severe enough to adversely impact the program
                       had been resolved prior to project deployment. FinCEN program
                       management officials also told us that they knew of no defects
                       that they considered to be “icebergs” or “showstoppers,” or
                       had any concerns with software performance. FinCEN program
                       management officials told us defects remaining open after
                       testing were considered low severity, and a process was in
                       place to resolve the open defects.

                       Defects discovered during the government acceptance testing
                       were reviewed by FinCEN and classified into levels of severity,
                       from 1 to 5, with 1 being the most severe (a “showstopper”)
                       and 5 being minimal. Level 1 and 2 defects were returned to the
                       respective developer for correction. Prior to accepting the
                       correction, FinCEN performed regression testing to either accept




11
   FinCEN has an interagency agreement with the Bureau of the Public Debt to house the BSA IT
Mod infrastructure and to perform certification and accreditation testing of the BSA IT Mod projects.
The certification phase includes system analysis to identify weaknesses in operating the system
with specified counter-measures in a particular environment, as well as an analysis of the potential
vulnerabilities of these weaknesses. Accreditation is the formal approval by an appropriate official
that an automated information system is allowed to operate in a particular security mode using a
prescribed set of safeguards and should be strongly based on the residual risks identified during
certification.
12
   A Plan of Actions and Milestones identifies tasks to be accomplished in support of certification
and accreditation. It details resources required to accomplish the elements of the certification and
accreditation, any milestones and dates in meeting the tasks, and scheduled completion dates for
the tasks.

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 13
                       Remains Crucial (OIG-12-077)
                       or reject the correction. 13 Level 3 through 5 defects are to be
                       resolved in future project releases. 14

                       MITRE officials told us that as of the end of May 2012, all
                       requirements and functionality that had been planned were
                       achieved. MITRE officials also told us that they were satisfied
                       with FinCEN’s BSA IT Mod project and program management,
                       and stated that FinCEN had matured in its capabilities to plan,
                       execute, and document testing.

                       FinCEN Addressed SOR Formatting Concerns

                       In our March 2012 report, we reported that IRS officials were
                       concerned about the new SOR format not being compatible
                       with WebCBRS. To address this concern, FinCEN decided to
                       provide BSA data from its E-filing system in the same format
                       IRS uses and map back the data from the new BSA forms to the
                       legacy form format in WebCBRS. 15 FinCEN completed and
                       tested the mapping to the legacy forms in January 2012 and
                       from the new BSA forms in March 2012. FinCEN program
                       management officials and IRS officials told us both
                       organizations signed off on the mapping. Additionally, in July
                       2012, IRS’s Assistant Chief Information Officer for Applications
                       Development told us that no major problems had been brought
                       to her attention.

                       Risks to BSA IT Mod’s Successful Completion

                       Although FinCEN management has dedicated itself to the
                       success of BSA IT Mod and to date has demonstrated good
                       leadership and commitment to the program, successful
                       completion is not without risk. A continuing risk concerns the
                       program’s high-level of dependency between the component

13
   Regression testing consists of rerunning the tests against the modified software code to
determine whether the changes created adverse effects to prior working software code.
14
   A priority 3 (major) defect limits functionality but an acceptable workaround exists. Resolution of
a priority 4 (minor) defect can be delayed without impacting testing efforts. A priority 5 (minimal)
defect involves a requested enhancement to a project.
15
   On March 29, 2012, FinCEN released and began to accept a new Currency Transaction Report
form and a new Suspicious Activity Report form into FinCEN's BSA E-Filing System. FinCEN also
released the new Registration of Money Services Businesses and Designation of Exempt Person
forms.

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 14
                       Remains Crucial (OIG-12-077)
                       projects and the close coordination required as a result.
                       Programing changes to one project, such as the SOR, require
                       programing changes to other projects. Additionally, other
                       project schedules could be impacted if resolving defects or
                       development takes longer than planned, or if resources need to
                       be reallocated to resolve issues as they are identified. In this
                       regard, FinCEN project management must continue to closely
                       monitor the projects.

Finding 3              FinCEN Maintained Oversight of the BSA IT Mod
                       Program

                       In our March 2012 report, we reported that FinCEN restructured
                       to strengthen management and oversight of the BSA IT Mod
                       program. Overall, management and oversight remained strong
                       during the scope of this review. We also reported in March
                       2012 that Treasury OCIO had been actively involved overseeing
                       BSA IT Mod during the program’s initial planning and early
                       development phases. Since then, we found that Treasury
                       OCIO’s oversight was primarily accomplished through a review
                       of FinCEN-prepared program documentation.

                       Several Parties Exercise Oversight of the Program

                       Deloitte provided FinCEN with monthly BSA IT Mod program
                       management reviews. The monthly reviews focused on the
                       program status using earned value management (EVM) and
                       provided a forum for a comprehensive program overview,
                       including risks and mitigation plans. 16 MITRE officials told us
                       that to date FinCEN handled the program in an acceptable
                       manner and MITRE had no significant concerns. Additionally,
                       overall the program has stayed within cost and met scheduled
                       targets.



16
  EVM measures the value of work accomplished in a given period. Differences in these values are
measured in both cost and schedule variances. Explanations must be provided for variances of 10
percent and are subject to corrective action plans, baseline change requests, or termination. The use
of EVM satisfies Office of Management and Budget requirements on programs classified as major
acquisitions as well IT projects. FinCEN contracted with MITRE to provide an independent validation
to ensure the accuracy of EVM data.

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 15
                       Remains Crucial (OIG-12-077)
                      Since the period covered by our March 2012 report, we found
                      that FinCEN’s PMO changed its oversight regime for BSA IT
                      Mod. 17 Specifically, we found that the PMO no longer
                      conducted formal documented independent assessments on
                      BSA IT Mod. 18 Instead, the PMO changed its focus to providing
                      technical assistance on BSA IT Mod configuration management.
                      The PMO’s change in focus occurred after its assessment in
                      March 2011. That assessment found, among other things,
                      weaknesses in the program’s configuration management. The
                      PMO concluded that configuration management was key to
                      keeping development of the SOR and other projects aligned. It
                      should be noted that PMO officials told us that assessments
                      were no longer considered necessary because of the strong
                      management of the BSA IT Mod program.

                      FinCEN’s BSA IT Mod program management plan states that the
                      BSA IT Mod program is subject to reviews from the PMO. As it
                      pertains to BSA IT Mod, the PMO is to perform scheduled and
                      ad hoc process reviews and assessments on the program and
                      its projects. We believe that although the PMO did not perform
                      assessments after March 2011, its continued configuration
                      management technical assistance was necessary in controlling
                      risk associated with the program.

                      Treasury OCIO’s Oversight

                      In our March 2012 report, we reported that Treasury OCIO had
                      been actively involved overseeing BSA IT Mod. At the time,
                      OCIO’s involvement was evident during the initial planning and
                      early development phases. During the period covered by our
                      review, Treasury OCIO officials told us that the office reviewed
                      program documentation, including performance plans, cost
                      submissions, and schedule and performance reporting; the
                      officials characterized the reviews as being at the “macro-level.”
                      OCIO officials also told us that OCIO representatives have not

17
   The PMO is charged with ensuring that FinCEN projects are compliant with project management
standards and processes. The office performed process reviews and assessments on bureau-specific
projects, including BSA IT Mod program.
18
   The PMO conducted two assessments which produced a number of recommendations aimed at
improving the project’s management processes mainly in the areas of quality, scheduling,
requirements, and change management. The last report issued was March 2011.

                      FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 16
                      Remains Crucial (OIG-12-077)
attended FinCEN’s BSA IT Mod monthly program status
meetings for some time. In this regard, we were told that the
OCIO desk officer assigned to the BSA IT Mod program could
not attend all the monthly meetings because the office did not
have the resources to send staff to every meeting. The assigned
OCIO desk officer stated that he contacted FinCEN’s program
manager whenever there were questions concerning FinCEN’s
monthly reporting submissions. OCIO officials told us that they
had no reason to question the BSA IT Mod program data
because FinCEN has been reporting results and the program has
been performing very well.

The Treasury CIO is a member of both the BSA IT Mod
Modernization Executive Group and Executive Steering
Committee, which was to meet on a quarterly basis or when a
major decision or approval was sought. While neither group had
formally met, face-to-face, in the 6 months prior to May 31,
2012, FinCEN communicated with these groups via emails
about the BSA IT Mod program confirming, among other things,
the map-back to WebCBRS consistent with the recommendation
in our previous audit report. In addition, FinCEN provided the
Treasury CIO with an update briefing in May 2012.

Looking forward, the Treasury CIO told us that the Treasury
OCIO was working to strengthen the analytical skills of its desk
officers. The office also planned to increase the level of
interaction with bureau CIOs by instituting quarterly investment
status meetings rather than annual investment reviews.

For the period covered by our review, we did not identify any
adverse impact to the BSA IT Mod program by the reduced
independent oversight by the FinCEN PMO or the oversight by
the Treasury OCIO. That said, we plan to continue to review the
program oversight exercised in our future audits of the program.

                                 ******

We appreciate the cooperation and courtesies extended to our
staff during the audit. If you wish to discuss the report, you
may contact me at (617) 223-8640 or, Audit Manager Mark



FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 17
Remains Crucial (OIG-12-077)
Ossinger, at (617) 223-8643. Major contributors to this report
are listed in appendix 5.


/s/
Sharon Torosian
Audit Director




FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 18
Remains Crucial (OIG-12-077)
Appendix 1
Objectives, Scope, and Methodology




This is the second in a series of audits of the Financial Crimes
Enforcement Network's (FinCEN) Bank Secrecy Act (BSA)
Information Technology Modernization Program (BSA IT Mod). Our
objective was to determine if FinCEN is (1) meeting cost, schedule,
and performance for this program and (2) providing appropriate
oversight of contractors. For this second audit, we determined the
status of the program’s cost, schedule, and performance through
May 31, 2012.

To accomplish our objective, we interviewed a variety of officials,
including FinCEN program officials, Department of the Treasury
(Treasury) Office of Chief Information Officer (OCIO) officials,
Internal Revenue Service (IRS) officials involved with using BSA
data. We also reviewed applicable program documentation and
testing procedures. We performed our fieldwork from March 2012
to August 2012.

At FinCEN, officials we interviewed included the following:

•   The Chief Information Officer (CIO) and the BSA IT Mod
    program manager to obtain an update on the BSA IT Mod, a
    perspective on each individual’s knowledge and level of
    involvement, cost and schedule concerns, and overall progress
    of the program.

•   The Chief Technology Officer to obtain his perspective, level of
    involvement, schedule and performance concerns, and overall
    progress of the program.

•   The Deputy Chief Financial Officer and lead budget analyst to
    gain an update of the cost and funding for the BSA IT Mod.

•   The Assistant Director and the lead assessor of FinCEN’s
    Project Management Office to discuss their assessments of the
    program’s practices.

•   The project managers, project leaders, and contracting officer
    technical representatives responsible for each BSA IT Mod
    project release to obtain an understanding of their perspective,
    level of involvement, schedule and performance concerns, and
    overall progress of their respective project.

FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 19
Remains Crucial (OIG-12-077)
Appendix 1
Objectives, Scope, and Methodology




External to FinCEN, we interviewed the following officials.

•   Deloitte LLP’s managing director and Deloitte’s program
    manager for BSA IT Mod at the contractor’s office in Rosslyn,
    Virginia, to obtain an update on their perspective of the BSA IT
    Mod and ascertain the program’s status.

•   MITRE representatives in McLean, Virginia, to obtain an update
    of MITRE’s role as the federally funded research and
    development contractor, its level of involvement with the
    program, as well as issues, any concerns, and other significant
    matters observed.

•   The Treasury CIO, the Treasury OCIO Associate Director of
    Information Technology Capital Planning, and the Treasury
    OCIO desk officer assigned to the BSA IT Mod program to gain
    an update on their roles in overseeing BSA IT Mod, as well as
    issues, any concerns, and other significant matters.

•   IRS officials in Detroit, Michigan. We spoke with officials from
    IRS’s Small Business/Self-Employed Unit, Modernization,
    Information Technology and Security Services Division, and
    Criminal Investigation Division to gain an update on their
    perspective and any concerns as future users of FinCEN’s
    modernized system.

•   IRS’s Associate CIO, Applications Development Group, to obtain
    an update of her role with BSA IT Mod, coordination between
    IRS and FinCEN, and any concerns regarding the program.

We reviewed program-related information that FinCEN provided to
us, including management reports; minutes from executive,
management, and technical meetings; planning documentation;
program and project level documentation; and various FINCEN
presentations.

We reviewed program management briefings and status reports,
internal and external program performance assessment reports, and
related documentation to assess program performance status,
risks, and issues.

FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 20
Remains Crucial (OIG-12-077)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We substantiated through a review of documentation that testing
                        was performed. We reviewed project testing results in FinCEN’s
                        issue and project management software used to track defects and
                        issues found during testing. We randomly selected test cases to
                        determine if testing had been performed and defects were resolved
                        or closed. 19 We observed actual testing performed of two test
                        cases, and corresponding entries to the issue and project
                        management software.

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




19
  A test case is a scenario made up of a sequence of steps and conditions or variables, where test
inputs are provided and the program is run using those inputs, to see how it performs. An expected
result is outlined and the actual result is compared to it. Certain working conditions are also present in
the test case, to see how the program handles the conditions.


                        FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 21
                        Remains Crucial (OIG-12-077)
                       Appendix 2
                       Corrective Actions to Prior Audit Recommendations




                       The status of the two audit recommendations in our prior report on
                       the Bank Secrecy Act (BSA) Information Technology Modernization
                       Program are presented in Table 5 below.

Table 5: Corrective Actions on Prior Audit Recommendations
Recommendation                       FinCEN Corrective Actions
In conjunction with IRS, ensure      The Financial Crimes Enforcement Network (FinCEN), in the short
in the short term that IRS’s         term, will provide Bank Secrecy Act (BSA) data to the Internal
WebCBRS data needs are met           Revenue Service’s (IRS) Web-based Currency and Banking
and; in the long term, assist IRS    Retrieval System (WebCBRS) via the current E-Filing system and
to ensure data requirements are      formats. In support of the longer-term goal, FinCEN was asked to
incorporated into IRS’s              participate on the IRS’s Integrated Project Team to define the IRS
modernization efforts.               BSA data end-state solution. FinCEN’s involvement on the team
                                     includes providing the technical specifications for bulk data
                                     distribution, answering questions related to new BSA data
                                     structures, and providing support as requested.

                                     FinCEN closed the short term action on March 28, 2012. The BSA
                                     Information Technology (IT) Modernization Executive Group
                                     consisting of the FinCEN Director, Treasury Chief Information
                                     Officer, and IRS Deputy Commissioner for Operations and
                                     Maintenance, approved the mapping back of new Suspicious
                                     Activity Report (SAR) and Currency Transaction Report (CTR) data
                                     from FinCEN’s E-Filing system to WebCBRS in the legacy format.
                                     Subsequently, on March 29, 2012, FinCEN released the new SAR
                                     and CTR reports to the filing institutions for submission. We
                                     confirmed during our second audit that FinCEN was able to provide
                                     BSA data from its E-Filing system in the same format IRS used.
                                     The long term action is considered closed by FinCEN with its
                                     ongoing participation on IRS's Integrated Project Team.
Ensure that, for future major        FinCEN responded to the audit recommendation that it did not have
capital investments, required        a future major capital investment planned. However, when such a
submissions to OMB include full      time comes, FinCEN will ensure that required submissions to Office
life-cycle cost estimates in         of Management and Budget (OMB) comply with OMB’s Circular A-
accordance with OMB Circular         11 and that required documentation supporting costs estimates are
A–11 and that thorough               maintained. FinCEN closed the action on April 10, 2012.
documentation supporting
estimates is maintained.             FinCEN's commitment to ensure future compliance and maintain
                                     supporting documentation met the intent of the audit
                                     recommendation.
Source: Treasury Office of Inspector General (OIG), FinCEN’s BSA IT Modernization Program Is on Schedule and
Within Cost But Requires Continued Attention to Ensure Successful Completion (OIG-12-047; Mar. 26, 2012).
OIG obtained the status of the recommendations through Treasury’s Joint Audit Management Enterprise System
(JAMES).




                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight     Page 22
                       Remains Crucial (OIG-12-077)
Appendix 3
Additional Background Information on BSA IT Mod


Baseline Change of the Bank Secrecy Act Information Technology
Modernization Program (BSA IT Mod)

Our first audit found the Financial Crimes Enforcement Network
(FinCEN) was reporting that as of May 2011, the 4-year, $120
million, BSA IT Mod was on schedule and within an acceptable 10
percent cost threshold. At that time, we found the program to be
generally within scheduled milestones, though certain projects had
exceeded scheduled milestones by 10 percent.

In June 2011, FinCEN adjusted selected project milestone schedule
dates and realigned costs to keep the overall program on track. The
baseline change resulted in no increase to overall costs and no
extension to the 4-year program schedule. However, a major
adjustment was made to the Contractor Services budget, which
was increased by approximately $12.7 million dollars or 37
percent. This budget increase was offset by a reduction to the
budgets for Other and Operations and Maintenance costs. Table 1
displays the impact the baseline change had on the major program
elements.

Table 1: BSA IT Mod Program Baseline Change Comparison (in millions)
                                  May 2010             June 2011
Element                           Initial Plan   Baseline Change        Change
Hardware and Software                  $16.8               $16.8            $0
Contractor Services                      34.2               46.9          12.7
Other                                    22.7               19.3          (3.4)
Operations and Maintenance               46.9               37.6          (9.3)
Total                                 $120.6              $120.6            $0
Source: OIG review of FinCEN data. FTEs are not included in the above cost
estimates.

Contractor Services was increased to provide additional iterations
to the building and testing of the system of record (SOR) and other
projects that had to be changed because of the changes to the
SOR. Increased data conversion testing was required because of
the volume and complexity of the data and business rules, and to
ensure that the integration, system performance, and data integrity
was correct.

BSA IT Mod Program has Multiple Projects

The BSA IT Mod program is made up of multiple projects with
specific components. The projects are summarized below.

FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight    Page 23
Remains Crucial (OIG-12-077)
Appendix 3
Additional Background Information on BSA IT Mod




•   BSA Data System of Record/Data Dissemination/Third Party
    Data — Implements the data storage and architecture for all
    BSA-related data. Implements the distribution of large quantities
    of BSA data to external consumers.

•   Shared Filing Services — Assists in the validation of BSA data
    based on external data sources, such as validating addresses
    with the U.S. Postal Service.

•   Data Conversion — Completes the conversion of 11 years of
    BSA data from the legacy system to the new SOR.

•   BSA E-Filing — Is the system by which BSA filers will submit all
    required documentation to FinCEN.

•   FinCEN Query — Implements a tool designed to improve
    authorized users’ ability to access and analyze BSA data. The
    tool will be used by FinCEN internal users and by registered
    external users and customers to retrieve and analyze BSA data.
    The tool is to support traditional structured BSA data queries,
    and provide narrative search capabilities and options to
    coordinate and collaborate with users on queries performed.

•   Advanced Analytics — Implements complex search and retrieval
    functionality required by internal and external users to support
    analytical, law enforcement, and regulatory activities. Provides
    advanced analytical capabilities such as geospatial, statistical
    analysis, social networking, semantic interchange, and
    visualization capabilities.

•   Register User Portal/Identity Management/Access Control
    Management — Provides a common user interface and
    authentication process through which authorized users will gain
    access to all future BSA IT Mod applications. Registered users
    will include both internal and external customers.

•   Broker Knowledge Exchange — Provides content management
    and collaboration support for internal and external stakeholder


FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 24
Remains Crucial (OIG-12-077)
                       Appendix 3
                       Additional Background Information on BSA IT Mod


                           communities. 314A allows law enforcement agencies to submit
                           requests through FinCEN to financial institutions for information
                           about financial accounts and transactions of persons or
                           businesses that may be involved in terrorism or money
                           laundering. 314 B allows financial institutions to share
                           information with one another through FinCEN to identify and
                           report suspicious money laundering or terrorist activities to the
                           federal government.

                       •   Alerts - Provides the ability to automatically alert analysts to
                           any suspicious activity based on pre-defined criteria.

                       •   Infrastructure — Provides the design, development,
                           procurement, and implementation of the development and test
                           environments, storage area network(s), and disaster recovery
                           capabilities required to support the other BSA IT Mod projects.

                       Contractors Engaged by FinCEN

                       In March 2008, FinCEN awarded a 5-year indefinite delivery,
                       indefinite quantity (IDIQ) contract to BearingPoint, Inc., in
                       connection with the BSA IT Mod. 20 The contract was subsequently
                       transferred to Deloitte Consulting, LLP (Deloitte). 21 The contract
                       ceiling is a maximum of $144 million and a minimum of $1 million
                       over the contract’s 5-year life. The contractor is to support
                       FinCEN’s Technology Solutions and Services Division by providing
                       a full range of information technology services, custom
                       applications, maintenance support, and infrastructure support
                       necessary to implement the FinCEN IT operational objectives that
                       will evolve over the course of the contract. Numerous program-
                       related task orders associated with the contract are to be issued
                       during the 5-year contract period, which includes BSA IT Mod.
                       FinCEN also contracted with MITRE Corporation (MITRE) to provide

20
   An IDIQ contract provides for an indefinite quantity of services during a fixed period of time. This
type of contract is used when it cannot be predetermined, above a specified minimum, the precise
quantities of supplies or services that the government will require during the contract period. IDIQ
contracts are most often used for service contracts and architect-engineering services. An IDIQ contract
is flexible, especially when not all the requirements are known at the start of a contract and is
conducive to a modular approach, which would be one with phases or milestones.
21
   The IDIQ contract was transferred from BearingPoint, Inc., to Deloitte Consulting, LLP on October 1,
2009 after Deloitte Consulting, LLP, purchased substantially all of the assets of Bearing Point, Inc.,
Public Service Division.

                       FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 25
                       Remains Crucial (OIG-12-077)
                      Appendix 3
                      Additional Background Information on BSA IT Mod


                      management guidance, coordination, and evaluation support for
                      BSA IT Mod. 22 MITRE is a subject matter expert on program and
                      project management, and BSA IT Mod business capabilities.

                      FinCEN is using the Acquisitions Services Directorate of the U.S.
                      Department of the Interior as the contract office to administer the
                      contract. FinCEN chose this office because of its prior experience
                      handling large, complex procurements.




22
  MITRE is a not-for-profit organization chartered to work in the public interest with expertise in
systems engineering, information technology, operational concepts, and enterprise modernization.
Among other things, it manages federally funded research and development centers, including one for
IRS and U.S. Department of Veterans Affairs (the Center for Enterprise Modernization). Under
Treasury’s existing contract with MITRE, Treasury and its bureaus, with permission of the IRS sponsor,
may contract for support in the following task areas: strategic management, technical management,
program and project management, procurement, and evaluation and audit to facilitate the modernization
of systems and their business and technical operation.

                      FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 26
                      Remains Crucial (OIG-12-077)
Appendix 4
Management Response




FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 27
Remains Crucial (OIG-12-077)
Appendix 5
Major Contributors to this Report




Boston Office

Mark Ossinger, Audit Manager
Kenneth O’Loughlin, Auditor-in-Charge
Alex Taubinger, Auditor

Washington, D.C.

Farbod Fakhrai, Referencer




FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 28
Remains Crucial (OIG-12-077)
Appendix 6
Report Distribution




Department of the Treasury

    Deputy Secretary
    Under Secretary for Terrorism and Financial Intelligence
    Chief Information Officer
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
        Group

Financial Crimes Enforcement Network

    Director


Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations




FinCEN’s BSA IT Modernization Program Is Meeting Milestones, But Oversight   Page 29
Remains Crucial (OIG-12-077)
